              OFFICE OF
              INSPECTOR GENERAL
              U.S.DEPARTMENT OF THE INTERIOR


                                                                                            September 25, 2013

Memorandum

To:            Rhea Suh
               Assistant Secretary for Policy, Management and Budget

Attention:     Eric Eisenstein
               Division Chief, Internal Control and Audit Follow-up
               Office of Financial Management

From:          Charles Haman
               Central Region            ger for Audits, Inspections, and Evaluations

Subject:       Verification Review of Recommendations for the "Indian Land Consolidation
               Advisory: Need for an Appraisal Tracking System" (WR-EV-OST-0010-2011)
               Report No. C-VS-OST-0008-2013

        The U.S. Department of the Interior (DOl), Office oflnspector General, has completed a
verification review of the three recommendations presented in the advisory report "Need for an
Appraisal Tracking System" (WR-EV-OST-0010-2011). The objective ofthis verification was to
determine whether the recommendations were implemented by the Office of the Special Trustee
for American Indians (OST) as reported to the Office of Financial Management (PFM), Office of
Policy, Management and Budget. PFM reported to us when each of the three recommendations
in the report had been addressed. Based on our verification, we concur that all three
recommendations are resolved and implemented.

Background

        In our January 2011 evaluation report, "Coordination ofEfforts to Address Indian Land
Fractionation" (WR-EV-BIA-0002-2010), our objective was to identify challenges to
implementing the Cabell class-action lawsuit settlement and solving the long-standing problem
of Indian land fractionation. The settlement provides for a $1 .9 billion fund to be established for
the voluntary buy-back and consolidation of fractionated land interests. Among the issues
identified were the extended periods to produce reports from the Trust Asset and Accounting
Management System (TAAMS). TAAMS is the system of record for land title and is used to
process land acquisitions.

       In our July 2011 advisory report "Indian Land Consolidation Advisory: Need for an
Appraisal Tracking System" (WR-EV-OST-0010-2011), we reported that the regions of the
Office of Appraisal Services (OAS) within OST used various methods to track appraisal
requests, rather than a centralized appraisal tracking system. In an attempt to remedy the matter,



                          Office of Audits, Inspections, and Evaluations   I Lakewood, CO
OAS had considered two options: Update its Appraisal Request and Review Tracking System to
meet the varied needs of OAS regions and the reservations they serve, or create an in-house
system. After weighing the issue, OAS decided to develop its own system for tracking appraisal
requests, the Office of Appraisal Services Information System (OASIS). We identified that OAS
supervisory appraisers generally supported a centralized tracking system; however, some noted
that they would like for all OAS appraisers to provide feedback prior to live-testing in the
regions.

       In a memorandum dated March 15, 2012, DOI’s Deputy Secretary responded to the
advisory report concurring with the three recommendations. On April 5, 2012, we referred the
recommendations to the Office of Policy, Management and Budget for tracking of
implementation.

        Subsequently, PFM issued memorandums as they closed the recommendations. On
June 7, 2012, PFM reported that Recommendations 2 and 3 were implemented and closed. On
August 20, 2012, PFM reported that Recommendation 1 was implemented and closed.

Scope and Methodology

        The scope of this review was limited to determining whether OAS took action to
implement the three recommendations in the report. To accomplish our objective, we reviewed
the supporting documentation that OST officials provided to PFM and us. We discussed OAS’
actions related to each recommendation and independently verified their implementation.

        We did not perform any site visits or conduct fieldwork to determine if the underlying
deficiencies we initially identified were corrected. As a result, this review is not conducted in
accordance with Generally Accepted Government Auditing Standards issued by the Comptroller
General of the United States or the Quality Standards for Inspection and Evaluation issued by the
Council of the Inspectors General on Integrity and Efficiency.


Results of Review

       We concluded that OST resolved and implemented Recommendations 1, 2, and 3.

       Recommendation 1: Implement a centralized appraisal tracking system for OAS that
       best positions the organization to meet its current and expected appraisal workload.

       Recommendation 2: Solicit feedback from all OAS appraisers on the selected appraisal
       tracking system prior to testing of the system in the regions.

Action Taken: OAS demonstrated a prototype of OASIS and solicited feedback from OAS
appraisers in all regions. The presentations took place from July 2011 through August 2011.
Questions regarding the business model were voiced and clarification provided. Appraisers also
offered input regarding needed reports.




                                               2
        Three selected OAS regional offices and three Bureau of Indian Affairs’ (BIA) agencies
participated in beta testing. OAS’ and BIA’s staff attended thirty-three OASIS training sessions.
One hundred forty-eight BIA employees received security clearances and user setup for OASIS.
The system was implemented in all 12 OAS regions in August 2012. The new centralized
tracking system provides OAS the ability to track appraisal requests and generate reports on the
number of appraisal services by region, agency, or tribe.

       Recommendation 3: Consider issues identified in our January 2011 report when
       considering any TAAMS modifications for appraisals.

Action Taken: In response to the advisory report, DOI concurred with the recommendation,
stating:

       When considering the best solution for a centralized appraisal tracking system, OAS
       evaluated whether to develop a tracking system as a module within the Trust Asset and
       Asset Accounting Management System (TAAMS). OAS concluded that building an
       appraisal tracking system within TAAMS would be costly, uncertain, and risky.
       Nonetheless, it does make sense to have an appraisal tracking system able to
       communicate with TAAMS or similar land ownership tracking system to make
       populating of appraisal requests convenient and efficient. Integration of OAS
       functionality into the TAAMS system continues to be an important element of the
       Department’s overall review of the TAAMS system.

As stated in our referral memo to PFM, this response and proposed actions adequately addressed
our concerns.

Conclusion

       We informed OST officials of the results of this review on September 3, 2013. OAS
agreed with the results of our review.

cc:    Michele Singer, Principal Deputy, Special Trustee for American Indians
       Eldred F. Lesansee, Director, Office of Appraisal Services
       Wendy Meierotto, Acting Director, Indian Land Consolidation Center
       Nancy Thomas, Audit Liaison Officer, Office of the Secretary
       Michael Oliva, Audit Liaison Officer, Bureau of Indian Affairs
       Alexandra Lampros, Audit Liaison Officer, Office of the Secretary




                                                3
